No. 19-739
IN THE

Supreme Court of the United States
_______________

JULIUS BARBOUR, ET AL.,

Petitioners,
v.
HALLIBURTON COMPANY, ET AL.,
________

Respondents.

On Petition for a Writ of Certiorari
To The United States Court of Appeals
For the Fifth Circuit
________

MOTION FOR LEAVE TO FILE AND BRIEF OF NEW
CLASS CLAIMS ADMINISTRATOR AS AMICUS
CURIAE IN SUPPORT OF NEITHER PARTY
________

RICHARD C. STANLEY

Counsel of Record

KATHRYN W. MUNSON
STANLEY, REUTER, ROSS,
THORNTON & ALFORD, L.L.C.
909 Poydras Street, Suite 2500
New Orleans, LA 70112
(504) 523-1580
rcs@stanleyreuter.com

Counsel for amicus curiae Patrick A. Juneau in his
capacity as New Class Claims Administrator of the
Punitive Damages Settlement Program

MOTION FOR LEAVE TO FILE AMICUS BRIEF
This Honorable Court requested a response to the
Petition for a Writ of Certiorari in this matter. Patrick
A. Juneau, in his capacity as New Class Claims
Administrator of the Punitive Damages Settlement
Program (the “New Class Claims Administrator”),
hereby moves the Court for leave to file a responsive
brief as amicus curiae. Although the New Class
Claims Administrator filed an amicus brief in the
United States Court of Appeals for the Fifth Circuit
and his counsel participated in oral argument before
that court, and although the Petition repeatedly
references the Claims Administrator’s briefing and
argument, Petitioners did not consent to the filing of
the New Class Claims Administrator’s amicus brief to
this Court at this stage of consideration. Respondents
have consented in writing to the filing of the New
Class Claims Administrator’s amicus brief.
The proposed amicus brief addresses the
distribution model and claims determinations that
were made while Michael J. Juneau was still New
Class Claims Administrator. Michael J. Juneau
served as New Class Claims Administrator of the
Punitive Damages Settlement Claims Program from
October 23, 2015, until his appointment to the United
States District Court for the Western District of
Louisiana. Patrick A. Juneau was appointed as New
Class Claims Administrator on November 7, 2018.
Patrick A. Juneau requests leave to file an amicus
brief in his capacity as successor to that office.

An amicus brief from the New Class Claims
Administrator will assist the Court because the
Punitive Damages Settlements were limited-fund
settlements, meaning that Halliburton’s and
Transocean’s liability for punitive damages was fixed
in the Settlement Agreements. After the Settlement
Agreements were executed, Halliburton and
Transocean were not involved in the distribution
model to allocate the limited-fund settlements. And,
unlike in the BP compensatory damages settlement,
arising out of the same underlying events, Halliburton
and Transocean are not involved in review or appeal
of any punitive damages awards, or denials of awards,
made by the New Class Claims Administrator under
the distribution model.
The New Class Claims Administrator’s sole
interest in this matter lies in his predecessor’s courtordered responsibility for the creation and
implementation of the Distribution Model, and his
corresponding responsibility for implementing
whatever modifications to the model might (or might
not) result from the Court’s consideration of this
Petition. The New Class Claims Administrator,
therefore, wishes only to inform the Court of the legal,
procedural, and factual considerations that led to the
Distribution Model and resulted in Petitioners’ $0
awards. The New Claims Administrator, however,
takes no position on the merits of Petitioners’
arguments. Rather, the New Claims Administrator
moves to submit this amicus statement solely to assist
the Court in understanding and interpreting the
record below.

The New Class Claims Administrator also is the
party best positioned to set forth with detail and
clarity exactly how the claims process was developed
and administered in these cases, which led to a $0
award to these litigants. Indeed, it is hard to see how
an explanation of this process could not be helpful to
the disposition of this matter, no matter how this
Court ultimately should determine to resolve it.
Respectfully, the New Class Claims Administrator
requests that this amicus brief be accepted as a
resource to the Court in its assessment of the Petition.
Accordingly, the New Class Claims Administrator
moves for the Court’s leave to file this amicus brief.
Respectfully submitted,
RICHARD C. STANLEY

Counsel of Record

KATHRYN W. MUNSON
STANLEY, REUTER, ROSS,
THORNTON & ALFORD, L.L.C.
909 Poydras Street, Suite 2500
New Orleans, LA 70112
(504) 523-1580
rcs@stanleyreuter.com

Attorneys for Patrick A. Juneau in
his capacity as New Class Claims
Administrator of the Punitive
Damages Settlement Program
March 6, 2020

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS .............................................. i
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF AMICUS CURIAE ............................ 1
SUMMARY OF AMICUS CURIAE STATEMENT ... 3
AMICUS CURIAE STATEMENT .............................. 6
I.

Petitioners did not file compensatory
damages claims as plaintiffs in the
MDL. ............................................................... 6

II.

The district court dismissed the B1
Master Complaint in PTO 60, and
Petitioners took no steps to preserve
their right to seek compensatory
damages. ......................................................... 9

III. The Distribution Model, in accordance
with settled maritime law, based its
proposed distribution of punitive
damages on the amount of a claimant’s
actual or expected compensatory
damages recovery. ........................................ 11
IV. A corresponding $0 punitive damages
award for any claimant who had failed
to preserve a compensatory damages
claim was clearly stated and explained
in the Distribution Model and Claim
Form. ............................................................ 15

ii
V.

Petitioners did not opt-out, object, or
appeal
before
the
Settlement
Agreements and Distribution Model
became final. ................................................ 16

VI. Petitioners challenged their $0 awards
by seeking relief from the magistrate
judge, the district judge, and in a Rule
60 motion, and appealed each of those
rulings. ......................................................... 20
VII. The Fifth Circuit affirmed that
Petitioners were not entitled to relief
from the distribution model’s PTO 60
requirement because they made no
effort
whatsoever
to
pursue
compensatory damages upon learning
of the requirement. ...................................... 21
CONCLUSION.......................................................... 24

iii
TABLE OF AUTHORITIES
Page(s)
CASES

Am. Pipe & Constr. Co. v. Utah,

414 U.S. 538 (1974) ................................................. 6

BMW of N. Am., Inc. v. Gore,

517 U.S. 559 (1996) ............................................... 12

Exxon Shipping Co. v. Baker,

554 U.S. 471 (2008) ............................................... 11

Louisiana Crawfish Producers Ass’n-W. v. Amerada
Hess Corp., No. CV 6:10-0348, 2015 WL 10571063

(W.D. La. Nov. 23, 2015) ....................................... 11

Robins Dry Dock v. Flint, 275 U.S. 203 (1927) .......... 3

1
INTEREST OF AMICUS CURIAE 1
_______________________
The explanations presented in this amicus brief of
Patrick A. Juneau in his capacity as New Class
Claims Administrator of the Punitive Damages
Settlement Program (the “New Class Claims
Administrator”) are relevant to the Court’s
consideration of the Petition because the Punitive
Damages Settlements were limited-fund settlements.
Halliburton’s and Transocean’s liability for punitive
damages was fixed in the limited-fund Settlement
Agreements. After the Settlement Agreements were
executed, Halliburton and Transocean also were not
involved in the drafting or development of the
Distribution Model to allocate the limited-fund
settlements. Unlike the compensatory damages BP
settlement, Halliburton and Transocean are not
involved in review or appeal of any punitive damages
awards, or denials of awards, made by the New Class
Claims Administrator under the distribution model.
The New Class Claims Administrator’s interest in
this matter lies in his predecessor’s court-ordered
responsibility for the creation and implementation of
the Distribution Model, 2 and his corresponding
1

This brief has been authored solely by counsel for Patrick A.
Juneau in his capacity as New Class Claims Administrator of the
Punitive Damages Settlement Program. No party contributed
funding related to the preparation of this brief. All parties were
notified in writing of the New Class Claims Administrator’s
intention to file this amicus brief on February 10, 2020.
2

The district court appointed Michael J. Juneau to serve as New
Class Claims Administrator of the Punitive Damages Settlement

2
responsibility for implementing whatever modifications to the model might (or might not) result from this
matter. The New Class Claims Administrator,
therefore, wishes to inform the Court of the legal,
procedural, and factual considerations that led to the
Distribution Model and thereafter resulted in
Petitioners’ $0 awards.
The New Class Claims Administrator offers this
amicus brief as a resource in the Court’s assessment
of the Petition, which is the only basis on which it is
offered.

Claims Program on October 23, 2015. Following Michael J.
Juneau’s appointment to the United States District Court for the
Western District of Louisiana, Patrick A. Juneau was appointed
as the New Class Claims Administrator on November 7, 2018.
This amicus brief addresses the distribution model and claims
determinations that were made while Michael J. Juneau was
still New Class Claims Administrator. This brief is submitted by
Patrick A. Juneau in his capacity as successor to that office.

3
SUMMARY OF AMICUS CURIAE
STATEMENT
_______________________
The New Class Claims Administrator respectfully
submits this amicus curiae brief to assist the Court in
reviewing this Petition for a Writ of Certiorari.
The HESI/Transocean Settlement Agreements 3
resolved and released claims for punitive damages
against Halliburton and Transocean related to the
Deepwater Horizon Incident, with which the Court is
well-familiar. 4 The Settlement Agreements provided
a limited fund of approximately $1.24 billion in
aggregate settlement benefits, $903,638,743.58 of
which was allocated to the settlement of New Class
punitive damages claims. 5
The court-approved and noticed Distribution
Model divided the New Class into five “Claim
Categories” based on their likelihood of recovering
punitive damages under Robins Dry Dock v. Flint, 275
U.S. 303 (1927) and its progeny. The net punitive
damages settlement fund was then allocated to the
New Class in the following proportions to form Net
3

Although executed separately, by Transocean on May 29, 2015,
and by Halliburton originally on September 2, 2014, and
amended on September 2, 2015, the Settlement Agreements
contain parallel language throughout and are referred to
collectively in this brief. See Pet. App. 7.
The “Deepwater Horizon Incident” is more fully defined in
Section 5(o) of the Agreements.

4

5

The remaining $338,247,923.42 was allocated to the DHEPDS
Class to settle claims against Halliburton and Transocean that
BP had assigned to that class in the DHEPDS Settlement § 1.1.3.

4
Settlement Fund Pools:
(1) Real Property (80.0%)
(2) Commercial Fishermen (17.8%)
(3) Loss of Subsistence (1.4%)
(4) Personal Property (0.6%)
(5) Charterboat (0.2%)
Within each Net Settlement Fund Pool, the amounts
are divided among eligible claimants in direct
proportion to their actual or expected recovery of
compensatory damages or “base compensation
amount.” Accordingly, a claimant’s recovery of
punitive damages under the Distribution Model is in
proportion to the value of his compensatory damages
claim.
Petitioners had not received a compensatory
damages award or settlement and their compensatory
damages claims were assigned a $0 value because
they had failed to preserve their compensatory claims
pursuant to PTO 60. Under the mathematical
formulae in the Distribution Model, a $0 value
compensatory damages claim corresponded to a $0
punitive damages distribution.
Not only did Petitioners not file or seek to file a
compensatory damages claim in the MDL, Petitioners
confirmed to the Fifth Circuit that they “are not
seeking to file individual suits for economic damages
against BP or other responsible entities.” 6 Without a
compensatory damages claim to provide a base
compensation amount, under the distribution model,
6

See Pet. Br. 5th Cir. at 34.

5
Petitioners’ claim determinations resulted in $0
awards.
That individuals who had not yet recovered
compensatory
damages
or
preserved
their
compensatory damages claims by compliance with
PTO 60 would receive a $0 award was facially
apparent both in the Distribution Model and its
attached draft Claim Form, giving potential claimants
substantial advance notice of this outcome.
An explanation of (a) the procedure for asserting
this category of claims in the MDL and (b) the basis of
the PTO 60 requirement in the New Class Claims
Administrator’s Distribution Model demonstrates
why this group of menhaden fishermen—who at some
point may have had potentially valid claims for
compensatory and punitive damages due to the
Deepwater Horizon incident—nevertheless received a
$0 claim determination in the HESI/Transocean
punitive damages settlement.

6
AMICUS CURIAE STATEMENT
_______________________
I. Petitioners did not file compensatory damages
claims as plaintiffs in the MDL.
The B1 Bundle Master Complaint asserted a
broad range of claims against BP, Transocean, and
Halliburton for both compensatory and punitive
damages, on behalf of unnamed potential class
members, defined as follows:

All individuals and entities residing or
owning property in the United States
who claim economic losses, or
damages to their occupations,
businesses, and/or property as a result
of the April 20, 2010 explosions and
fire aboard, and sinking of, the
Deepwater Horizon, and the resulting
Spill. 7
Menhaden fisheries and commercial fishermen were
expressly included in the B1 Complaint’s broad
allegations of damages resulting from the Deepwater
Horizon Incident.
Petitioners, therefore, along with many claimants
in MDL 2179, passively relied at the outset on the B1
Master Complaint as unnamed potential class
members to preserve their compensatory and punitive
damages claims arising out of the Deepwater Horizon
Incident. See Am. Pipe & Constr. Co. v. Utah, 414 U.S.
538, 552 (1974) (permitting class action plaintiffs to
7

See Pet. App. 34–35.

7
passively rely on such a complaint).
The district court denied a motion to dismiss the
B1 Master Complaint in a ruling that was later
referenced and incorporated in the Settlement
Agreements as the basis for the New Class’s standing
to bring claims under maritime law. On August 26,
2011, in the “B1 Order” (as it is referred to in the
Settlement Agreements), the B1 Master Complaint
was deemed sufficient for commercial fishermen, such
as Petitioners, to state a claim under general
maritime law for compensatory and punitive damages
against BP, Halliburton, and Transocean. 8
Less than one year later, on May 3, 2012, the
Deepwater Horizon Economic and Property Damages
Settlement (the “DHEPDS”) was filed. 9 The DHEPDS
eventually would resolve the vast majority of claims
that had been preserved in the B1 Master Complaint
through a Court-Supervised Settlement Program
(“CSSP”), including claims for compensatory damages
against BP and against the Respondents here,
Halliburton and Transocean. Punitive damages
claims against Halliburton and Transocean were
8

Specifically, United States District Court Judge Carl J. Barbier
held that the B1 Complaint “state[d] a viable cause of action . . .
under general maritime law on behalf of claimants who either
allege physical damage to a proprietary interest and/or qualify
for the commercial fishermen exception to Robins Dry Dock.” B1
Order (Rec. Doc. 3830) at 25. The Court further analyzed the
availability of punitive damages under general maritime law in
light of the Oil Pollution Act and held that the B1 Plaintiffs who
had asserted such general maritime law claims also had
“assert[ed] plausible claims for punitive damages . . .” Id. at 27.

9

See R.18-30243.2635.

8
specifically reserved and excluded from the DHEPDS,
and later became the subject of the separate
HESI/Transocean punitive damages settlement at
issue in this appeal.
Menhaden fishermen fell within the few
categories of B1 plaintiffs who were specifically
excluded from participating in the DHEPDS to resolve
their compensatory damages claims. Menhaden
fishermen had been able to participate in the Gulf
Coast Claims Facility (“GCCF”) claims process that
immediately followed the Deepwater Horizon
incident, and some menhaden fishermen (not those
involved in this appeal) took advantage of that early
opportunity to resolve their damages claims through
the GCCF. But the DHEPDS, for whatever reason,
expressly excluded all “[c]laims relating to menhaden
(or ‘pogy’) fishing, processing, selling, catching, or
harvesting.” 10
Therefore, while other DHEPDS claims were
being processed by the CSSP under the BP
settlement, Petitioners’ claims remained unresolved
and passively asserted in the allegations contained in
the B1 Master Complaint. It does not appear that
Petitioners took any steps to pursue or resolve their
compensatory damages claims between the filing of
the DHEPDS in 2012 and the dismissal of the B1
Complaint in 2016. Indeed, the Petition states that
they did not even retain counsel during this period. 11

10

See R.18-30243.2649.

11

Pet. at 7 n.6.

9
II. The district court dismissed the B1 Master
Complaint in PTO 60, and Petitioners took no
steps to preserve their right to seek
compensatory damages.
Judge Barbier dismissed the B1 Complaint and
entered Pretrial Order 60 (“PTO 60”) on March 29,
2016. 12 That Order came nearly six years after the
Deepwater Horizon Incident and with most of the B1
claims already having been resolved in the DHEPDS.
PTO 60 expressly required any and all remaining
plaintiffs who either had filed a short form joinder to
the B1 complaint, or who were part of a complaint
with more than one plaintiff (or a “mass joinder”
lawsuit), to file individual complaints with a
completed sworn statement by May 2, 2016. 13
PTO 60 also included a notice plan that would
provide a copy of the Order to all counsel of record,
post the Order on the MDL website, and instruct BP
and the PSC to transmit copies of the Order to
plaintiffs who had opted out of the DHEPDS and all
known counsel of record for B1 Plaintiffs. 14

12

See Pet. App. 8; R.18-30243.4218.

13

R.18-30243.4220–21. Petitioners contend that they (or their
counsel) did not realize that PTO 60 applied to them based on the
wording of the Order. PTO 60, however, dismissed the entire B1
Master Complaint—a dismissal that by its terms would apply to
any unnamed B1 class plaintiffs, who no longer could rely on the
B1 Complaint or any other “mass joinder” lawsuit to “preserve”
their damages claims.
14 R.18-30243.4222–23. Petitioners also contend that they (or
their counsel) nevertheless did not receive adequate notice of
PTO 60. The New Class Claims Administrator takes no position

10
Judge Barbier granted several extensions to the
PTO 60 deadline to various claimants for good cause
shown and issued a show cause order for any filings
that did not fully comply with PTO 60. 15 Any former
B1 plaintiffs, however, who did not comply with PTO
60 or timely show good cause for their failure to do so
were “deemed noncompliant with PTO 60, and their
B1 claims [were] dismissed with prejudice.” 16
Petitioners did not file an individual suit to
preserve their claims and were not granted a “good
cause” extension for their failure to comply with PTO
60. Accordingly, whatever compensatory damages
claims they had preserved initially through the B1
Master Complaint as unnamed potential class
members were dismissed by PTO 60 on March 29,
2016. 17
With the dismissal of the B1 Master Complaint,
Petitioners had no pending complaint for
compensatory damages on file in the MDL to
correspond with their claim in the settlement program
for punitive damages. And, because they took no other
action to preserve their right to compensatory
damages, Petitioners had no basis to claim or recover
compensatory damages in the MDL at the time their
on this issue other than to inform the Court of the steps taken by
the district court to insure adequate notice.
15

See R.18-30243.4458.

16

See R.18-30243.5196.

See R.18-30243.4223 (“[T]he Court hereby DISMISSES the
Amended Master B1 Complaint and orders the designated
plaintiffs to act in compliance with this Order or face dismissal
of their claims with prejudice without further notice.”).
17

11
claims were submitted to the Punitive Damages
Settlement Program.
III. The Distribution Model, in accordance with
settled maritime law, based its proposed
distribution of punitive damages on the amount
of a claimant’s actual or expected compensatory
damages recovery.
The Settlement Agreements authorized the New
Class Claims Administrator to create a Distribution
Model for the HESI/Transocean punitive damages
settlement fund. Pursuant to a court-established
deadline, the New Class Claims Administrator
submitted the proposed Distribution Model to the
district court on June 13, 2016 18—over a month after
the deadline to file individual claims in compliance
with PTO 60 had passed.
Following well-established maritime law, the
Distribution Model for punitive damages was based
upon a claimant’s expected base compensation or
actual compensatory damages. See Exxon Shipping
Co. v. Baker, 554 U.S. 471, 515 (2008) (applying
generally a maximum punitive-to-compensatory ratio
of 1:1 for claims under general maritime law).
In Baker, this Court held that the maximum
amount of recoverable punitive damages under
maritime law should generally be limited to a ratio of
1:1 to a plaintiff’s compensatory damages. 554 U.S. at
515; see also Louisiana Crawfish Producers Ass’n-W.
v. Amerada Hess Corp., No. CV 6:10-0348, 2015 WL
10571063, at *7 (W.D. La. Nov. 23, 2015) (citing and
18

See Pet. App. 9.

12
applying Baker to the punitive damages claims of
commercial fishermen and noting “[i]t is axiomatic
that punitive damages may only be recovered in cases
where compensatory damages are allowed in the
underlying claim.”). In a non-maritime context as
well, this Court has endorsed the idea that the
amount of allowable punitive damages should be
related to the amount of compensatory damages. See
BMW of N. Am., Inc. v. Gore, 517 U.S. 559, 580–81
(1996) (“The principle that exemplary damages must
bear a ‘reasonable relationship’ to compensatory
damages has a long pedigree. . . . Our decisions . . .
endorsed the proposition that a comparison between
the compensatory award and the punitive award is
significant.”).
The Settlement Agreements also specifically
contemplated that the New Class Claims
Administrator would set standards by which a
claimant could establish the existence of an
underlying claim for compensatory damages.

The plan for distribution of payments
to the New Class recommended by the
Claims Administrator may, at his/her
discretion, include a standard to
establish a claim for Real Property
damage, a standard to establish a
claim for Personal Property damage,
including Vessel damage, a standard
to establish a claim for commercial
fishing loss, a standard to establish a
claim for charter fishing loss, a
standard to establish a claim for
subsistence loss, and other standards

13

as necessary to distribute the New
Class Funds. Prior to distribution of
any New Class Funds, the Effective
Date must have occurred and the
Distribution Model must be approved
by a Final order of the Court. HESI
[and Transocean] shall not have any
responsibility or liability whatsoever
for, the distribution or method of
distribution
of
the
Aggregate
19
Payment.
Awards of punitive damages, therefore, would be tied
to the existence of an actual claim for compensatory
damages, and the New Class Claims Administrator
would establish standards of proof for those claims as
necessary to distribute funds in a Distribution Model.
Under the Distribution Model, New Class
punitive damages claimants could establish their
actual or expected amount of compensatory damages
through:
(1) an automatically-transferred DHEPDS
claim; 20

19
20

R.18-30243.4068, 4140.

Such transferred claims save administrative costs and benefit
from the substantial time, effort, and expense already incurred
in determining DHEPDS claim valuations. But this category
could not include any menhaden fishermen, given that they had
been excluded from the DHEPDS.

14
(2) a settlement obtained through the CourtAppointed Neutrals or otherwise providing
compensatory damages; 21 or
(3) proof of an existing compensatory damage
claim that survived PTO 60 to be assigned an
expected value according to criteria specified in
the Distribution Model.
Menhaden fishermen could not satisfy the first
method, having been excluded from the DHEPDS, and
were, therefore, required to satisfy either method 2 or
3 to establish a compensatory claim for commercial
fishing loss.
If a New Class member already had lost their
compensatory damages claim by failing to comply
with PTO 60, however, his claim for compensatory
damages was valued at $0 because that claim was no
longer asserted or preserved. The Distribution Model,
following Baker, thus provided that class members
with $0 value compensatory damage claims could not
receive a greater award through the punitive damages
settlement. See Baker, 554 U.S. at 515 (applying
generally a maximum punitive-to-compensatory ratio
of 1:1 for claims under general maritime law).
A $0 valuation determination for non-PTO 60
compliant claimants, therefore, was not based on a
determination that these claimants were not part of
21

The Court-appointed Neutrals were Mike Moore and Drake
Martin. The Neutrals oversaw a process outside the CSSP for
voluntary settlements with BP of claims asserted in MDL 2179,
which settlements generally reserved the settling party’s
punitive damages claims against Halliburton and Transocean.

15
the “New Class.” Rather, they received a $0
determination because they had not settled or
otherwise preserved their compensatory claims. A 1:1
ratio of a $0 value compensatory damages claim yields
a $0 punitive damages award. No contrary result
would be possible under maritime law. 22
IV. A corresponding $0 punitive damages award for
any claimant who had failed to preserve a
compensatory damages claim was clearly stated
and explained in the Distribution Model and
Claim Form.
The requirement for compliance with PTO 60 was
facially apparent both in the New Class Claims
Administrator’s Distribution Model and its attached
draft Claim Form. 23 From the New Class Claims
Administrator’s Distribution Model, all New Class
members who did not participate in the DHEPDS or
receive a Neutrals settlement and who did not comply
with PTO 60 (such as Petitioners) should have seen
See Distribution Model, R.18-30243.4657 (“Under maritime
law, a claimant may obtain punitive damages only if that
claimant has a valid claim for underlying compensatory
damages. Accordingly, this Distribution Model does not assign
any value to the claims of those who have not received
compensatory damages through some vehicle or have a pending
claim or lawsuit to recover compensatory damages arising from
the Deepwater Horizon Incident.”).
22

23 See id. (“For those claimants who were not included within the

DHEPDS and are allowed to file a new claim under this
Distribution Model, their claims will be assigned no value unless
they adequately preserved their right to pursue damages by
complying with the MDL-2179 Pretrial Order 60 [Rec.
Doc.16050].”); R.18-30243.4686, 4688. (also explaining this
result on the draft Claim Form).

16
that their submission to the Settlement Program
would result in an award of $0 from the punitive
damages settlement.
The New Class Claims Administrator further
explained this reasoning and discussed his application
of Baker to the Distribution Model in a “Clarification
of New Class Distribution Model Issues” that was filed
and submitted before final approval of the Settlement
Agreements by the district court, which clearly stated:
“Given that these individuals and entities [who have
not received compensatory damages or complied with
PTO 60] have not and will not likely recover any
compensatory damages, the New Class Distribution
Model assesses the most reasonable value of their
corresponding punitive damage claim as zero dollars
($-0-).” 24
V. Petitioners did not opt-out, object, or appeal
before the Settlement Agreements and
Distribution Model became final.
New Class members who disagreed with the
Distribution Model were given the option to object to
or opt-out of the HESI/Transocean Settlement. The
deadline to opt-out or object was September 23,
2016—over three months after the Distribution Model
was submitted on June 13, 2016. 25 Petitioners did not
exercise their right to opt-out of the Settlement
Agreements or otherwise object to the settlement

24

R.18-30243.5068–70.

25

See Pet. App. 8, 59, 89.

17
structure or the Distribution Model. 26
Judge Barbier also held a fairness hearing on
November 10, 2016 to address any remaining
concerns with the Settlement Agreements and the
Distribution Model. 27 Petitioners did not appear or
assert an objection at the fairness hearing.
Some class members who owned beach-front
property, e.g., the “Salas Objectors,” did object to the
Distribution Model, arguing that their noncompliance with PTO 60 should not result in a $0
award. The Salas Objectors argued (among other
reasons for disagreement with the model) that they
did have a valid pending damages claim that was not
dismissed by PTO 60 in the form of a separate
proposed class action lawsuit previously filed by their
attorney, Camilo K. Salas, III, in 2013 in civil action
no. 2:13-97. 28 This lawsuit is referred to in the Petition
for certiorari as the “Bruhmuller complaint.” 29
The district court issued its Final Order approving
the Settlement Agreements on February 15, 2017. In
26

In its Order and Reasons for final approval, the district court
noted that “[u]nder the Preliminary Approval Order, failure to
comply with its objection provisions waived and forfeited any and
all of a putative objector’s rights to object to the Proposed
Settlements, forever foreclosing the objector from making any
objection to the Proposed Settlements, and binding the objector
by all the terms of the Proposed Settlements and by all
proceedings, orders and judgments in this matter.” R.1830243.5269.
27

Pet. App. 59, 92.

28

See R.18-30243.4919.

29

See Pet. at 4 n.2.

18
the Order and Reasons for approval, Judge Barbier
briefly mentioned the objection that the Salas
Objectors had asserted during the approval process,
but held “[t]his objection is most properly considered
in an appeal to this Court after claim determinations
are concluded.” 30 Fourteen days after entry of the
Order, the Salas Objectors settled and dismissed the
separate lawsuit they had filed in civil action no. 2:1397, resulting in a compensatory damages settlement
amount that in turn could serve as the basis to
participate in this punitive damages settlement. 31
By comparison, Petitioners never filed or sought
to file any lawsuit in the MDL, relied only passively
on the class allegations in the B1 Complaint (which
had been dismissed), and confirmed to the Fifth
Circuit that they “are not seeking to file individual
suits for economic damages against BP or other
responsible entities.” 32
The Petitioners never argued that they were
included in the Bruhmuller class action on their claim
forms, to the district court, or to the Fifth Circuit, and
they were neither directly nor indirectly involved in
the filing or resolution of that case. Neither could
being included as a passive member of the putative
class asserting beach-front property damages in
Bruhmuller have resulted in a compensatory damages
award or settlement amount to Petitioners. Judge
30

R.18-30423.5276.

See Salas Objector’s Dismissal of civil action no. 2:13-97 (Rec.
Doc. 22329).
31

32

Pet. Br. 5th Cir. at 34.

19
Barbier’s PTO 60 reconciliation order expressly
rejected an argument that a filed putative class action
was sufficient to preserve a plaintiff’s claim in the
absence of compliance with PTO 60. 33
That the parties to the Bruhmuller class action
(who were actually involved in that litigation) were
able to settle their damages claims with Defendants
after this ruling and receive a settlement that could
then be used as a base compensation amount
demonstrates that the Distribution Model was flexible
enough to accommodate circumstances in which
Plaintiffs might be able to receive compensatory
damages awards, despite having not initially complied
with PTO 60.
What the distribution model does not do (and
what it could not do, consistent with maritime law)
was award punitive damages to claimants who had
not been awarded any compensatory damages and are
not seeking compensatory damages.
Like the Salas Objectors, other menhaden
fishermen (represented by other counsel) either (a)
settled their compensatory damages claims or (b)
complied with PTO 60 and submitted evidence of their
compliance, thereby preserving their compensatory
damages claims. Petitioners, however, did not take
such steps and did not opt-out of or object to the
Distribution Model before its final approval, even
though the model clearly stated from the outset that
they would receive a $0 punitive damages distribution

33

See R.18-30243.5212.

20
to correspond to their $0 value compensatory damages
claims.
Petitioners also did not appeal the February 15,
2017 final approval order. The “Effective Date” of the
Settlement Agreements was triggered the day after
the deadline to appeal the final approval Order, and
the Settlement Agreements thereafter became “Final”
and fully effective. 34
VI. Petitioners challenged their $0 awards by
seeking relief from the magistrate judge, the
district judge, and in a Rule 60 motion, and
appealed each of those rulings.
As stated under the court-approved Distribution
Model, Petitioners received a claim determination of
$0. Not until after their claims had been submitted
and the awards processed through the claims program
did these sixty-eight menhaden fishermen finally
assert a delayed objection to the PTO 60 requirement.
A series of challenges to the Distribution Model’s PTO
60 requirement followed.
First, United States Magistrate Judge Joseph C.
Wilkinson, Jr. reviewed and denied Petitioners’
claims appeals in two separate rulings. In the first of
these rulings, Magistrate Judge Wilkinson directly
addressed and affirmed the propriety of the New Class
Claims Administrator’s Distribution Model requiring
proof of a compensatory damages claim through a
previously resolved claim or proof of an existing claim
that survived PTO 60. 35 The second such ruling
34

R.18-30243.4130, 4154-56, 4159.

35

Pet. App. 26–43.

21
affirmed the $0 award for the same reasons and noted
that the Fifth Circuit had “recently affirmed the
validity, enforceability and requirement of compliance
with Pretrial Order No. 60.” 36
Next, Petitioners sought review of Magistrate
Judge Wilkinson’s claims appeal determination by the
district judge. Judge Barbier held that the Settlement
Agreement precluded district court review of a
Magistrate’s claims appeal determinations. 37
Finally, some of the Petitioners moved for relief
from Judge Barbier’s final Order and Reasons
approving the Distribution Model pursuant to Federal
Rule of Civil Procedure 60, but Judge Barbier denied
their Rule 60 motion. 38
Petitioners then separately appealed each of these
district court decisions and moved to consolidate the
cases in the Fifth Circuit, addressing the overarching
question of the propriety of their $0 awards through
the claims program.
VII. The Fifth Circuit affirmed that Petitioners were
not entitled to relief from the distribution
model’s PTO 60 requirement because they made
no effort whatsoever to pursue compensatory
damages upon learning of the requirement.
Counsel for HESI, Transocean, and the New Class
Claims Administrator, as amicus curiae, presented
this explanation for Petitioners’ $0 awards to the Fifth
36

Pet. App. 45.

37

Pet. App. 48–49.

38

Pet. App. 47.

22
Circuit in briefing and at oral argument. 39 Affirming
the district court in all respects, the Fifth Circuit
correctly recognized that “[u]nder maritime law, a
plaintiff’s recovery of punitive damages is tied to his
or her underlying compensatory damages claim.” 40
The Fifth Circuit further rejected Petitioners’ due
process arguments, reasoning that “the Fishermen
did not attempt to comply with PTO 60 once they did
receive notice of it.” 41 Given that Petitioners had no
compensatory damages claim and took no steps to
assert a compensatory damages claim in the MDL, the
Fifth Circuit found that the district court did not err
in affirming the $0 punitive damages awards.
Following the Fifth Circuit’s panel’s unanimous
decision and denial of rehearing, 42 Petitioners are now
seeking review in this Court. The New Class Claims
Administrator is not a Respondent on the Court’s
39

Petitioners claim that “Neither the appellees nor the claims
administrator, appearing as amicus curiae, had asserted this
non-pursuit of such opportunities as a ground for rejecting
petitioners’ due process argument; rather, the court of appeals
raised this as an issue for the first time at oral argument.” Pet.
at 13. The New Class Claims Administrator’s briefing as amicus
was offered in the Fifth Circuit, as it is here, to assist the court
and not to advocate for the rejection of any particular argument
of the Petitioners. Nevertheless, that amicus brief did point out
the multiple opportunities Petitioners had to opt out of, object to,
or appeal before the Settlement Agreements and Distribution
Model became final. Amicus Br. 5th Cir. at 21–25.
40

Pet. App. 13.

41

Pet. App. 21 (emphasis in original).

42

See Pet. App. 55.

23
docket, and takes no position on the merits of the
Petition itself. Rather, the New Class Claims
Administrator appears only as amicus to help
illuminate the complex procedural history of the claim
process in the underlying case.

24
CONCLUSION
___________________
The New Class Claims Administrator respectfully
submits this limited amicus response to inform the
Court of the legal considerations and timeline of
events that resulted in Petitioners’ $0 punitive
damages awards, and solely to assist the Court in its
consideration of this Petition.
Respectfully submitted,
RICHARD C. STANLEY

Counsel of Record

KATHRYN W. MUNSON
STANLEY, REUTER, ROSS,
THORNTON & ALFORD, L.L.C.
909 Poydras Street, Suite 2500
New Orleans, LA 70112
(504) 523-1580
rcs@stanleyreuter.com

Attorneys for Patrick A. Juneau in
his capacity as New Class Claims
Administrator of the Punitive
Damages Settlement Program
March 6, 2020

